HHS/OIG, Audit - "Review of High-Dollar Payments for Medicare Part B
Claims Processed By National Government Services for New York Providers for the
Period January 1, 2003, Through December 31, 2005," (A-02-07-01043)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of High-Dollar Payments for Medicare Part B Claims Processed By National
Government Services for New York Providers for the Period January 1, 2003,
Through December 31, 2005," (A-02-07-01043)
April 22, 2008
Complete
Text of Report is available in PDF format (325 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Ninety-four of the one hundred sampled high-dollar Medicare
Part B payments ($10,000 or more) that National Government Services made to
providers during calendar years (CY) 20032005 were appropriate.  However,
National Government Services overpaid providers $39,196 for the remaining six
payments.  Providers refunded two overpayments totaling $30,075 and partially
refunded one overpayment ($7,707 of $7,837) prior to the end of our fieldwork.
Four overpayments totaling $1,414 remained outstanding.  National Government
Services, the Medicare Part B carrier for about 48,000 providers in 16
southeastern New York counties, made 942 high-dollar payments in CYs 20032005.
We recommended that National Government Services (1)
recover the $1,414 in overpayments, (2) review the remaining 842 high-dollar
claims processed during CYs 20032005 and work with the providers that claimed
these services to recover any overpayments, (3) consider identifying and
recovering any additional overpayments made for high-dollar Part B claims paid
after CY 2005, and (4) use the results of this audit in its provider education
activities.  National Government Services agreed with our recommendations.